   PERFORMANCE AUDIT

AUDIT OF DEPARTMENT OF LABOR
   GRANTS TO ASSIST TRADE-
          AFFECTED
   DISLOCATED WORKERS IN




                    Office of Inspector General
                    Office of Audit
                    Report No. 06-02-003-03-340
                    Date Issued: November 19, 2001
                                              TABLE OF CONTENTS

                                                                                                           Page
ACRONYMS/ABBREVIATION'S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iv

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

AUDIT OBJECTIVES, SCOPE, AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

CHAPTER 1: PROGRAM PERFORMANCE ISSUES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

     1. Approximately $106 Million in Costs Were Incurred for 4,275
        Dislocated Workers in El Paso, Texas, Without Substantial Wage Gains
        As a Result of This Investment. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

     2. Participants Were Enrolled Predominantly in English as a Second Language (ESL)
        and General Equivalency Diploma (GED) Training – Including the Same
        Training Type with Multiple Training Vendors -- Some for Long Periods of Time,
        Some at High Costs. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18

     3. Evidence Suggests That Needs Related Payments Delayed Some Enrollees’
        Return to Work. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25

CHAPTER 2: RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30

APPENDIX A:

          TABLE 1:            Analysis of Participant Placement Wages in Relation to
                              Training Time and Training and Income Support Costs . . . . . . . . . . . . . 32

          TABLE 2:            Analysis of Placement Wage Rates Compared to
                              Layoff Wage Rates for the Reported Placements
                              Where Both Wage Rates Were Available . . . . . . . . . . . . . . . . . . . . . . . 33

          TABLE 3:            Analysis of Days in Holding for The Sampled
                              PREP Enrollees Who Were “Still Enrolled, Not in Training”
                              As of April 30, 2001, or “Terminated as Employed” . . . . . . . . . . . . . . . 34

          TABLE 4:            Analysis of Participants’ Placement Wage Rates in
                              Relation to Amounts of Enrollee Costs . . . . . . . . . . . . . . . . . . . . . . . . . 35

                                                                 ii
                                           TABLE OF CONTENTS


                                                                                                                     Page
APPENDIX A:

         TABLE 5:           Types of Training Provided by Funding Source . . . . . . . . . . . . . . . . . . . 36

APPENDIX B: Participant Examples . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 37

APPENDIX C: Sampling Plan . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 41

APPENDIX D: Agencies’ Responses To Draft Report . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 42

         Upper Rio Grande Workforce Development Board . . . . . . . . . . . . . . . . . . . . . . . . . . . 43

         Texas Workforce Commission . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 54

         Employment and Training Administration . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 58




                                                            iii
             ACRONYMS/ABBREVIATIONS


ABE         Adult Basic Education

BRS         Basic Readjustment Services

BS          Basic Skills

DOL         U.S. Department of Labor

ESL         English as a Second Language

ETA         Employment and Training Administration

GED         General Equivalency Diploma

JTPA        Job Training Partnership Act

NAFTA-TAA   North American Free Trade Agreement-Transitional Adjustment
            Assistance

NRA         National Reserve Account

NRP         Needs Related Payments

PREP        Proactive Reemployment Program

TAA         Trade Adjustment Assistance

TRA         Trade Readjustment Allowance

TRX         Extended Trade Readjustment Allowance

TWC         Texas Workforce Commission

TWIST       The Workforce Information System of Texas

UI          Unemployment Insurance

URGPIC      Upper Rio Grande Private Industry Council

WBA         Weekly Benefit Amount

WDB         Workforce Development Board

WIA         Workforce Investment Act




                                    iv
                                       EXECUTIVE SUMMARY


We audited the results of training and income support provided by the Unemployment Insurance
(UI), Trade Adjustment Assistance (TAA), North American Free Trade Agreement-Transitional
Adjustment Assistance (NAFTA-TAA), and Job Training Partnership Act (JTPA) programs to
over 4,000 trade-certified dislocated workers in El Paso. We found that placement outcomes
were overstated, that the placement wages for those who entered employment were low, and
needs related payments provided a disincentive to employment.

For any future grants to extend training and income support beyond those received under UI,
TAA and NAFTA-TAA, to trade-affected dislocated workers, we recommend that the Assistant
Secretary for Employment and Training require such grants to:

        !        institute controls to ensure participants’ needs for further training are properly
                 assessed and that training can be provided to realistically address such needs;

        !        periodically evaluate the effectiveness of training providers;

        !        routinely assess participants’ training progress and modify strategies where
                 participants do not appear to be moving toward the ultimate outcome of achieving
                 employment;

        !        structure needs related payments such that there is a clear economic incentive for
                 participants to complete training and move on to employment; and

        !        study the extent to which employers recognize and value GEDs obtained in
                 languages other than English for purposes of adopting a policy on whether
                 supporting the attainment of such GEDs is an appropriate use of program funds.

------------------------------------------------------------------------------------------------------------------

The Upper Rio Grande Workforce Development Board (WDB) and the Texas Workforce
Commission (TWC) expended approximately $106 million, an average of about $25,000 per
participant, to provide training and income support to 4,275 dislocated workers.

        !        $72 million in income support
        !        $26 million in training costs
        !        $ 8 million in PREP administrative costs

In our opinion, the following recommendations will help achieve more positive results than we
found in the El Paso trade-affected dislocated worker programs:
       !       the $6.77 per hour average placement wage rate achieved for those who entered
               employment was:

               •       below the $7.13 per hour average layoff wage rate, and
               •       below the $7.11 wage goal in the PREP grant proposal;

       !       53 percent of those who entered employment had placement wage rates less than
               their layoff wage rates;

       !       57 percent of those who entered employment had placement wage rates of less
               than $6 per hour;

               •       16 percent earned minimum wage $5.15

       !       $3,024 in average quarterly earnings were achieved after PREP termination;

       !       participants who earned less than $6 per hour had the highest average total training
               and benefit costs of $24,843;

       !       36.2 percent placement rate, as of April 30, 2001, was arrived at based on ETA's
               outcomes reporting criteria, rather than 81 percent based on the Upper Rio Grande
               WDB’s management information system;

       !       participants were enrolled in ESL/GED training with multiple training vendors,
               some for long periods of time and some at high costs; and

       !       needs related payments provided a disincentive to employment -- participants
               remained in the program because they could receive $9.10 per hour, tax free, for
               attending class rather than working for $6.77 per hour, before taxes.

Agencies’ Responses and Auditor’s Conclusions

The WDB’s, the TWC’s, and the Employment and Training Administration’s (ETA) responses to
our draft report are included in this final report at Appendix D. Pertinent comments from these
responses are also discussed in the applicable report sections.

ETA essentially agreed with our recommendations but indicated the recommendations would
primarily have to be addressed by the State and local boards. TWC concurs with all but the last
recommendation, regarding GEDs in Spanish, which it believes is a local issue. The WDB stated
they will utilize the report’s findings to enhance future programs but did not specifically address
our recommendations.

Our draft report recommendations remain unchanged.


                                                 2
                                       BACKGROUND


The TAA program was established under the Trade Act of 1974 (P.L. 93-618). The NAFTA-
TAA program was established under the North American Free Trade Agreement Implementation
Act of 1993 (P.L. 103-182), which amended the Trade Act of 1974 by adding Subchapter D to
Chapter 2 of Title II.

Farther, Title III of JTPA (P. L. 97-300, dated October 1982, as amended) authorizes training and
income support for dislocated workers. JTPA reserves 20 percent of the Title III funds
appropriated for the Secretary to fund special projects to address national or regional concerns.
Governors also may reserve up to 40 percent of the state allocation for a variety of State activities
and substate grantee needs.

Since January 1994 thousands of workers in El Paso, Texas, have been certified as dislocated
workers, mostly in the textile and apparel industries. Consequently, these workers were entitled
to TAA/NAFTA-TAA-funded training and benefits.

These dislocated workers faced significant barriers to finding employment in El Paso’s labor
market. Local and State officials believed that before these dislocated workers could obtain new
vocational skills to compete in El Paso’s labor market, they needed to improve their educational
and/or English language skills.

Program officials at the local, State, and Federal levels concluded that these significant
educational and skill deficiencies were not being adequately addressed through the TAA/NAFTA-
TAA programs due to both funding and training-time limitations. In order to enable as many of
these individuals as possible to complete their training programs and to serve those eligible
individuals not previously enrolled, additional Job Training Partnership Act (JTPA) funds were
provided to the Upper Rio Grande Private Industry Council (URGPIC). These JTPA funds were
to provide additional training, administration, case management, supportive services, and income
support payments (needs related payments) beyond regular unemployment compensation and
trade program allowances. These additional JTPA funds were provided through the Governor’s
Discretionary grants and the Secretary’s National Reserve Account (NRA) grants.

Initially, to supplement the TAA and NAFTA-TAA programs, the State began a Pilot Project
with the JTPA Governor’s Discretionary funding. Only part of the Pilot Project funding was
provided to the URGPIC; the State, through the TWC, directly spent over $4 million under this
program for training participants.




                                                  3
Subsequent to the Pilot Project, ETA awarded the URGPIC a separate Needs Related Payments
(NRPs) grant for participants in the Pilot Project. This grant was funded by the Secretary’s
JTPA National Reserve Account, through the Governor’s office.

In anticipation of the award of the JTPA-funded $45 million Proactive Reemployment
Program (PREP) grant from the Secretary’s National Reserve Account, the State provided
URGPIC a PREP startup grant. This $2.5 million startup grant, as amended, was awarded for
the period from April 13, 1998, to June 30, 1999. (The final closeout expenditures were $1.5
million.)

ETA agreed that the TWC Pilot Program funds were insufficient to provide needed case
management and training for the TAA and NAFTA-TAA certified dislocated workers. Therefore,
ETA provided directly to the URGPIC the $45 million JTPA Title III, PREP grant. The eligible
population to be served under the grant were individuals that were laid off from trade-affected
jobs between January 1, 1994, through December 31, 1998. This national PREP grant, as
amended, provided for payment of allowable expenditures for the period
July 1, 1998, through June 30, 2001.

In summary, the major JTPA sources of funds for providing training and NRPs to PREP
participants are included in the following table. (The amounts are based on grant closeout
documents, when applicable. Otherwise, the amounts are from the grant award, as modified.)

            Sources of JTPA Funding for PREP Enrollees Granted to URGPIC
                    Program                            Type of JTPA Funds            Amount
     State Pilot Project Subgrant                Governor’s Discretionary        $    1,794,658
     ETA Needs Related Payment Grant             Secretary’s National Reserve    $    2,363,865
     State PREP Start-up Grant                   Secretary’s National Reserve1   $    1,493,498
     ETA PREP Grant                              Secretary’s National Reserve    $   45,000,000

In addition to the JTPA funding sources above, we compiled the total costs of training and
income support from the following funding sources that were provided for a random sample of
the PREP participants:

       !       Unemployment Insurance (UI) Program
       !       Trade Adjustment Assistance (TAA)
       !       North American Free Trade Agreement-Transitional Adjustment Assistance
               (NAFTA-TAA)



       1
        These grant funds were passed through the Governor’s office.

                                                      4
Unlike NRPs paid under JTPA, UI and Trade Readjustment Allowances (TRA) paid under the
TAA and NAFTA-TAA programs are entitlements; i.e., as long as the dislocated workers meet
the requirements under State and/or Federal laws, they are entitled to the benefits. However, the
eligibility requirements for UI and TRA are somewhat opposite. To be entitled to UI benefits, the
individual must be available and seeking work unless the work search requirement is waived, and
the individual is enrolled in an approved training program. To be entitled to TRA benefits, the
dislocated worker must be enrolled in approved training but can still receive TRA if he/she obtains
a written waiver from training; e.g., individual already possesses adequate skills and is actively
seeking work.

TRA benefits are paid in two phases – basic and additional. Basic TRA benefits are paid for 26
weeks after the individual has exhausted his/her UI benefits if the individual is enrolled in an
approved training program, unless a written waiver from training is obtained (except no waivers
are allowed for TRA under the NAFTA-TAA program). The additional 26 weeks of TRA are
paid only if the individual is enrolled in approved training -- no waivers are allowed.

Consequently, while UI and TRA benefits are income support entitlements and are outside the
control of the WDB, they represent a cost of the dislocated workers’ being in training. Therefore,
we have presented these costs in this report to show the cost of the total effort to serve the
dislocated workers in El Paso who were enrolled in the PREP as of December 31, 1999.

We compiled administration costs only for the PREP grant.

Audit sample demographics

As shown in the following table, approximately 70 percent of the 231 participant sample was
female, and 86 percent was age 55 or younger. The average age was 43.

                 AGE AND GENDER OF 231 PARTICIPANTS SAMPLED
                                                       Gender                       Cumulative
       Age at PREP Enrollment                                                       Percentage
                                        Female            Male            All
 30 and under                                  14                 15         29            12.6%
 31 - 45                                       79                 31        110            60.2%
 46 - 55                                       46                 14         60            86.2%
 56 - 60                                       16                  9         25            97.0%
 Over 60                                         5                 2            7        100.0%
 All                                          160                 71        231



                                                 5
The average educational level at the time the participants enrolled in PREP was grade 9 for the
220 sampled participants for whom we could determine educational level. Also, over 35 percent
had a grade 12/GED education or higher with a minimum of 26 percent (58/220) receiving their
education in the United States. The following table shows grade levels for these 220 participants:

                  EDUCATION LEVEL AND SOURCE OF EDUCATION
                       FOR 220 PARTICIPANTS IN SAMPLE

                                       Source of Education
 Education grade level                                                                 Cumulative
 at PREP Enrollment           Unknown        Mexico          USA           All         Percentage
 13 -16                                 3            4              2              9        4.1%
 12                                   22             8             39             69       35.5%
 9 - 11                               13            25             11             49       57.7%
 6-8                                    8           58              6             72       90.5%
 1-5                                    4           17                            21      100.0%
 All                                  50         112               58            220




                                                6
              AUDIT OBJECTIVES, SCOPE, AND METHODOLOGY



AUDIT OBJECTIVES

Our audit objectives included evaluating training, placement outcomes, and costs, regardless of
the funding source, for a sample of enrollees in the $45 million PREP program.

The primary questions that we attempted to answer through our audit analysis were:

   $ What were the total direct enrollees' costs of trade-related training and income support
     from the time of initial trade certified layoffs through September 30, 2000, for enrollees of
     the El Paso PREP grant enrolled as of December 31, 1999?

   $ What types of training were provided to PREP enrollees and did these interventions result
     in dislocated workers being prepared to compete for jobs in the El Paso job market?

   $ What was the training and employment status of PREP enrollees including earnings after
     program termination as of April 30, 2001?

SCOPE

We conducted a performance audit to assess the cost and outcomes or status for enrollees in the
PREP program. Our scope did not include an audit of the fairness of reported or recorded
grant costs. It also did not include an examination of the adequacy of administrative procedures
such as the procurement of training vendors or financial management. Rather, the scope included
using State and grantee management records, including enrollee case files, to:

       $       identify total reported costs incurred directly on the enrollees’ behalf, and

       $       assess the enrollees’ outcome status.

Our compilation included the training costs and benefit payments from the initial unemployment
claim that resulted in eligibility for the PREP program, through September 30, 2000. Initially, our
cutoff for determining the status of training was June 30, 2000.

The PREP program began July 1, 1998, and was extended until June 30, 2001. Our sample was
selected from the entire PREP enrollee population as of December 31, 1999. Therefore, some
sample individuals were still enrolled during the period of our initial fieldwork from
May 2000 through December 2000.


                                                  7
We originally obtained participant case files in May 2000. As a result, we supplemented the case
files with cost information through September 30, 2000. Additionally, we obtained participant
status information through April 30, 2001, from the State TWIST (The Workforce Information
System of Texas) and State wage records through December 31, 2000 -- latest available at the
time -- to enable analysis of the final reported outcomes for a larger share of sample enrollees.

Our sample of 231 PREP enrollees included 124 individuals who were also recorded as enrollees
in the State Pilot program according to TWIST records. The Pilot program was begun by TWC
as of March 14, 1997. Other individuals were enrolled into the PREP late in 1998.

Our cost compilation is incomplete with regards to TWC’s Pilot program costs for the sample
PREP enrollees. TWC provided us with some documentation of Pilot program costs in
September 2000 and June 2001. However, adequate cost documentation was not provided for
the largest of the six vendors that were paid directly by TWC for Pilot program enrollee training.
Thus, our estimates regarding the cost of training for sample PREP enrollees are understated.

Our audit was conducted in accordance with generally accepted government auditing standards.

METHODOLOGY

We compiled and analyzed data from multiple State and Upper Rio Grande WDB files for 231
randomly-selected sample enrollees from the total population of 4,275 individuals in the El Paso
PREP as of December 31, 1999. We used enrollee case files as a source of information along
with State and local grantee cost and TWIST information. We also analyzed State wage file
information, TWIST participants’ termination status, and incentive payments made to enrollees
for job placement.

We also conducted a limited number of participant interviews.

(See appendix C for additional details on our sampling and compilation methodology.)




                                                 8
              CHAPTER 1. PROGRAM PERFORMANCE ISSUES


                                                               We estimate that $1062 million
 1. Approximately $106 Million in                              of training, income support, and
 Costs Were Incurred on Behalf of                              program administration and
 4,275 Dislocated Workers in El Paso,                          operating costs were incurred
 Texas, Without Substantial Wage                               on behalf of 4,275 participants
 Gains As a Result of This Investment.                         the Upper Rio Grande Private
                                                               Industry Council (URGPIC)3
                                                               enrolled in the Proactive
Reemployment Program (PREP) as of December 31, 1999. The average cost per participant was
approximately $25,000. The $106 million estimate is comprised of:

         UI/TRA Benefits                              $50 million
         Needs Related payments                        22 million
               Total income support                   $72 million

         Training costs and supportive                $26 million
          services
         Total training and income support            $98 million

         PREP administrative costs                    $ 8 million
               Total costs                            $106 million

These dislocated workers faced significant barriers to finding employment that required more
education, occupational skills, and English language skills than most of these individuals
possessed. State and local officials believed that before these dislocated workers could obtain
new vocational skills to compete in El Paso’s labor market, they needed to improve their


         2
          The $106 million cost estimate -- $98 million training and income support costs based on a projection of
our sample participant costs to the population; $8 million PREP program administration and operating costs -- for
the El Paso trade-affected workers is conservative. Our estimate does not include $2.8 million participants’
training costs for the largest training provider-- American Institute of English -- under the Governor’s Pilot grant.
Nor does it include approximately $2.5 million program administration and operating costs for the Governor’s
Pilot and PREP startup grants. Furthermore, our cost estimate does not include additional financial commitments
made for training that had not yet been paid, nor does it include any other financial commitments for training
made after September 30, 2000. Consequently, total average costs per participant probably exceeded our estimated
$25,000.
         3
           With the implementation of the Workforce Investment Act, the grant recipient was changed from the
URGPIC to the Upper Rio Grande Workforce Development Board (WDB). Further references to the grantee will
refer to the WDB.

                                                          9
educational and/or English language skills. Consequently, the preponderance of training made
available to these dislocated workers was ESL and GED training, funded through TAA, NAFTA-
TAA, or JTPA programs.

The $45 million PREP grant funded by the JTPA Title III, Secretary’s National Reserve Account
(NRA), was only one of several sources of funds that provided training, income support,
supportive services, administration, and participant case management to participants enrolled in
the PREP.4

For this $106 million State and Federal investment:

       A.      Enrollees’ placement wage rates were not substantial based on the level of
               expenditures incurred to improve their educational and occupational skills.

       B.      Average quarterly earnings were $3,024.

       C.      The WDB’s reported entered employment (placement) rate for PREP enrollees
               was significantly overstated.

Agencies’ Responses and Auditor’s Conclusions

Upper Rio Grande Workforce Development Board

The Workforce Development Board (WDB) responded that the average PREP costs for the
enrolled participants were about $10,297 The WDB also stated that we only looked at 5.2
percent of those served. Our audit was not limited to the $45 million PREP grant costs; the
PREP grant was only the final funding source to provide services to these participants. Our audit
encompassed other direct training and benefit costs for PREP participants that were paid from
sources besides the PREP grant. The costs we examined totaled about $25,000 on average for
the random statistical sample of PREP participants enrolled at the time of our audit (see Scope
section). A larger sample size would not change the point estimate for determining average costs
or participant outcomes.

The response also suggests that without a control group it is difficult to assess the consequences if
the additional PREP funding had not been provided to assist these dislocated workers. We agree
that program evaluations using control groups can provide valuable information. However,
performance audits alone can provide ample evidence of program results using only administrative
data such as accounting records and management information systems.

The WDB responded that PREP enrollees had an average third grade educational level. This
assumption appears to have come from the grant proposal. Our random sample included 220

       4
        See Background section of this report for funding sources.

                                                      10
participants where the educational level could be identified from the State’s Trade Unit or PREP
case files. At the time of PREP enrollment, these 220 participants had an average ninth grade
educational level with almost 36 percent having a twelfth grade education or General Equivalency
Diploma (GED). Furthermore, many individuals had already received 1 to 2 years of TAA
training funded by the Department of Labor, prior to their enrollment in the PREP program.
We have added some demographic information to the Background section of this final report.

Texas Workforce Commission

The TWC’s response to the draft report disagrees with our including the UI, TAA, and NAFTA-
TAA benefits in the total amount of direct enrollees’ costs. The State believes that use of the
$106 million figure paints an inaccurate picture of the scope of the Pilot and PREP, establishing
much greater expectations than any of the partners would have thought reasonable. Furthermore,
the response states that only 10 percent of the $106 million cited can in any way be deemed
discretionary.

In our opinion, our $106 million estimate provides a more complete picture of the government
funds used to support and train dislocated workers enrolled in the WDB’s $45 million PREP
grant. While UI and TRA paid under the TAA and NAFTA-TAA programs are entitlements, as
explained in the Background section, and are outside the control of the WDB, they represent a
cost of retraining dislocated workers. Therefore, we have presented these costs to show the cost
of the total effort to serve the dislocated workers in El Paso who were enrolled in the PREP as of
December 31, 1999.

Furthermore, we disagree with the State’s contention that only 10 percent of the $106 million we
presented was discretionary. The entire $5.8 million Pilot program -- over $4 million TWC
directly paid enrollee training costs and $1.8 million to the URGPIC-- $1.5 million PREP Startup
grant, $2.3 million NRP grant, and $45 million PREP grant were completely discretionary.
Consequently, at a minimum, almost $55 million of the $106 million (52 percent) was
discretionary.

Employment and Training Administration

ETA stated that it was not clear whether the UI and trade investments cited were just for the
workers enrolled in the PREP project. As stated in the Audit Objectives, Scope, and
Methodology sections of the draft report, our compilation was based on a random sample of
PREP participants. Furthermore, ETA also disagreed with our inclusion of UI and trade program
funds in examining the costs of training and income support provided to PREP participants. We
have addressed this in our above comments responding to the similar TWC comments.




                                                11
                                                The average placement wage rate was $6.77 per
 A. Enrollees’ placement wage rates were        hour for the 137 PREP enrollees reported as
 not substantial based on the level of          placed from our 231 participant sample. (See
 expenditures incurred to improve their         appendix A, table 1.) This wage rate is below
 educational and occupational skills.           the $7.13 per hour average layoff wage rate for
                                                the 113 participants for whom we had the layoff
                                                wage rate and below the $7.11 wage goal in the
                                                PREP grant proposal. Of the 137 reported
placements:

       !      57 percent had hourly wages of $6 or under, including 16 percent at minimum
              wage of $5.15 per hour, and

       !      80 percent had placement wages of $7.50 or under.

       (See appendix A, table 2.)

Furthermore, those participants who earned less than $6 per hour had the highest average total
training and income support costs of $24,843. (See appendix A, table 4.)

The placement wage rate compared with a layoff wage rate decreased for 53 percent of the 113
sample enrollees for whom we had both hourly layoff and placement wage rates available. The
average wage loss ($-1.96) exceeded the average wage gain ($1.50).

Agencies’ Responses and Auditor’s Conclusions

Upper Rio Grande Workforce Development Board

The WDB cited the high unemployment rate in El Paso and stated that the average layoff wage
reflects several years of working in the same industry and does not reflect an entry level wage.
The WDB indicated that the $6.77 average starting wage is 95 percent of the layoff wage. We
agree the average entry level wage after training is a high percentage of the layoff wage.
However, this fact alone is not evidence that the training provided was cost effective or
responsible for the placement outcomes that PREP enrollees achieved. Furthermore, inflation
alone contributed to increases in the average entry level wage, and some wage increases were the
result of the minimum wage increase.

Texas Workforce Commission

The TWC responded that the draft report did not recognize that the economy of the El Paso
region is the center of the issue on wage attainment. Furthermore, TWC responded that WDB
documents report the average wage at placement was 96 percent of the PREP goal.



                                               12
We do not disagree that a large portion of the PREP enrollees have entered employment, the
majority entering employment a long time after active PREP involvement. However, our audit
results from examining a random sample of PREP enrollees raise substantial doubt regarding the
effectiveness of the training provided for those individuals who were placed at jobs paying close
to the minimum wage.

Employment and Training Administration

ETA believes that the 95 percent average wage replacement rate (average new wage compared to
average layoff wage) is remarkable considering the dislocated workers’ barriers to employment.
The OIG’s conclusions to the WDB and TWC comments already address this issue. In summary,
some of the participants who eventually entered employment may have done so sooner without
the PREP program.


                                       The average quarterly earnings for sampled participants we
 B. Average                            could evaluate were $3,024. Of the 137 participants
 quarterly earnings                    reported placed, we could only evaluate earnings for the
 were $3,024.                          100 participants who were terminated prior to October 1,
                                       2000, because we only had wage records available through
                                       December 31, 2000, and we needed at least one full quarter
of earnings after the termination quarter to do the wage analysis.

We also analyzed quarterly earnings by the period in which the above participants were
terminated. Those who terminated earlier had the higher average quarterly earnings as shown
below:

       !       $3,822 for those (36) who terminated on or before December 31, 1999

       !       $2,575 for those (64) who terminated after December 31, 1999

Based on average placement wage rates and average quarterly earnings, in our opinion, the
vocational training achievement for many enrollees appears to have been limited.

(See appendix A, tables 1 and 2, for wage details.)

Agency’s Response and Auditor’s Conclusions

Upper Rio Grande Workforce Development Board

The WDB responded that vocational training achievements, if limited, were due to the
characteristics of the individuals being served, that those with higher educational and language
skills were able to enter vocational training for shorter time periods. In our opinion, the program


                                                 13
objective for all enrollees to obtain proficiency in the English language and obtain a GED was
unrealistic for many individuals. Furthermore, grant expenditures were beneficial only to the
extent that enrollees were making progress in obtaining new educational or vocational skills.


                                                       The WDB reported an 81 percent placement rate
 C. The WDB’s reported                                 for our sampled PREP enrollees as of
 entered employment                                    April 30, 2001. A significantly lower placement
 (placement) rate for PREP                             rate of 36.2 percent results when ETA’s
 enrollees was                                         outcomes reporting criteria are applied.
 significantly overstated.
                                                       Enrollees’ outcomes at April 30, 2001, according
                                                       to the WDB’s TWIST data, is provided in the
following chart.




             140
                                                                  137
             120
             100
               80
               60
                                                57
               40
               20                                                                  32

                   0         5
                                         Still Enr - no tng                  Term w/o plcmt
                       Still Enrld Tng                        Term w/plcmt

                                                     Enrollees


Of the 231 participant sample, 62 participants (27 percent) were still enrolled; 57 of those still
enrolled (85 percent) were not receiving any training. Of the 169 reported terminations as of
April 30, 2001, the WDB reported 137 placements, a reported 81 percent placement rate. This
rate is significantly overstated because PREP terminations and placements recorded in the State
TWIST as of April 30, 2001, did not follow ETA’s outcomes reporting criteria.

ETA’s Training and Employment Information Notice (TEIN) No. 5-93 provided that dislocated
worker program participants be terminated within 90 days of their last training or service.



                                                      14
Previous JTPA policy required that participants should be terminated within a reasonable time
after they stopped receiving training or services.

TEIN No. 5-93 provides: Without some policy on termination, performance standards create
strong incentives for local programs to avoid terminating failures even when individuals no
longer have any contact with the program. Thus, effective for Program Year 1996, participants
in JTPA Title III programs were to be terminated within 90 days after last receiving planned
training or active services.

While the prior table shows only 32 nonpositive terminations for the reported 169 terminations:

         !        52 of the 57 participants still enrolled, not in training, should have been terminated
                  as nonpositive terminations because they had been in basic readjustment services
                  (BRS) or job search more than 90 days -- 48 of the 52 participants had been in the
                  category for 6 months or more, and

         !        57 of the 137 participants reported as terminated with employment had been
                  retained in job search for more than 90 days prior to termination and should have
                  already been terminated as a nonpositive termination.

Recalculated, based on ETA’s outcomes reporting instructions, as of April 30, 2001, the 2315
enrollees’ status should have been as follows:

                                                                          Participants
                                                       Placed within        Term.- w/o        Ent. Emp.
               Description of Factor                     90 days            Placement           Rate
      WDB reported as terminations
      (with/without placement)                                       80                 32
      Still enrolled, w/no trng. >90 days                                               52
      Terms. w/employment > 90 days                                                     57
      ALL                                                            80               141           36.2%

Placement outcomes were expected to be determined within 90 days after a substantial program
activity. Yet, over 56 percent of the 194 sampled PREP enrollees who were either “still enrolled,
not in training” as of April 30, 2001, or were reported “terminated employed” were in holding



         5
          Of the 231 participant sample, 5 were “still enrolled in training.” Another 5 “still enrolled, not in
training” were in this category for less than 90 days. Consequently, our analysis applies only to 221 participants.

                                                         15
more than 90 days, including 39 percent that had been in holding for more than 6 months. (See
appendix A, table 3.)

The following example demonstrates how some participants were inappropriately held in a
holding category.


      Participant example 1

      This participant had been trained as a medical office specialist with the assistance
      of TAA funds, a Pell Grant, and a State grant from February 1998 to December
      1998. She was electronically enrolled into the PREP program in July 1998. The
      State MIS shows her enrollment into vocational training under PREP from August
      1998 to December 1998. (This is the same TAA training as shown above since the
      participant was never enrolled in PREP-funded training.) She was assigned to
      basic readjustment services (BRS) in December 1998.

      State wage records show that she was employed from December 1998 to August
      1999; however, her employment is not recorded in the MIS.

      In May 2000 when a PREP case manager finally interviewed the participant, she
      stated that she was not interested in working since she preferred to stay home and
      care for her child. The case manager placed her in BRS as a holding status until
      she was ready to return to work. She has remained in BRS since December 1998.




We are not contesting that the individuals recorded as placed did not enter employment at some
time. However, the placements we excluded above were so long after the training that they were
not countable for reporting performance outcomes based on ETA’s criteria. If allowed to keep
these individuals in holding indefinitely, all participants seeking employment would likely become
employed at some time; yet, the program’s impact on these individuals’ ability to get jobs is
uncertain.

Agencies’ Responses and Auditor’s Conclusions

Upper Rio Grande Workforce Development Board

The WDB took exception to our statement that the reported placement rate was significantly
overstated. WDB’s response referenced ETA’s requirement that “frequent and substantial”
services must be provided to keep a participant actively enrolled in the program. Yet, the



                                                16
WDB did not submit any evidence that it provided bona fide -- frequent and substantial -- basic
readjustment services (BRS) after enrollee training ended. Simply recording the BRS category in
a management information system for an individual is not acceptable evidence that frequent and
substantial services were provided. The participant case files did not document these frequent and
substantial services.

Texas Workforce Commission

TWC did not specifically respond to the placement rate but rather responded that even using our
calculated 36.2 percent placement rate, the wage at placement was still significantly above the
national average. TWC’s response was based on a GAO report which states: Based on available
but incomplete Department of Labor data, nationally only 61.5 percent of dislocated workers . . .
reported that their new jobs paid at least 80 percent of their old jobs wages.

The conclusion we provided in the draft report is unchanged. In our opinion, the program’s
impact on many of the enrollees’ ability to get jobs is uncertain.

Employment and Training Administration

ETA responded that JTPA did not restrict the timing of BRS which could be provided even at the
conclusion of an individual’s participation. Therefore, ETA believes the data in our draft report
was inconclusive as to how many participants were not terminated within 90 days of the last date
of service. As noted in our conclusion to the WDB comments, no evidence was provided that any
such services were provided.




                                                17
                                                                Of our 231 participant
 2. Participants Were Enrolled                                  sample, 2246 enrolled in
 Predominantly in English as a Second                           training, of which 141
 Language (ESL) and General                                     enrollees (63 percent)
 Equivalency Diploma (GED) Training --                          received training funded by
 Including the Same Training Type                               two or more sources,
 With Multiple Training Vendors -- for                          including TAA/NAFTA-
 Long Periods of Time, Some at High                             TAA, Pilot, PREP, or other.
 Costs.                                                         Considering that some of the
                                                                83 participants with only one
                                                                source of funding did not
receive any PREP-funded training, PREP provided only supplemental funding (NRPs,
administration, and case management) for many PREP enrollees.

                                                       The $45 million PREP grant was only the final
 A. Most of the participants’                          funding source of services to the El Paso
 training was some                                     dislocated workers enrolled in the PREP. The
 variation of basic skills --                          premise behind the PREP grant and its
 ESL/GED/Adult Basic                                   predecessor funding sources was that these
 Education (ABE)/Basic Skills                          dislocated workers did not have the
                                                       educational or English language skills to
                                                       qualify them for the jobs in the El Paso area;
i.e., they had to obtain proficiency in the English language and achieve their GEDs before they
could learn a new occupational skill.

About 53 percent of total training curriculums (242/459) for the 224 participants enrolled in
training were for basic skills only:

       ! 49 percent (126/258) of TAA/NAFTA-TAA and TWC Pilot-funded training, and
       ! 58 percent (116/201) of PREP-funded training.

(See appendix A, table 5, for details on types of training curriculums that were provided by
funding sources.)

Not only was the majority of the training given in many variations of basic skills, participants
enrolled in multiple classes of the same basic skill.

The above statistics understate the amount of training that was limited to basic skills.
Effectively, over half of the PREP training was additional basic skills for enrollees who had
already received similar training under the TAA/NAFTA-TAA and Pilot programs. Furthermore,



       6
        Three of the participants received training but we could not identify the training costs for them.

                                                       18
of the 217 vocational training curriculums, 97 curriculums (45 percent) combined vocational
training with a basic skills component.

Even when vocational training was contracted for as part of a participant’s combined basic
skills/vocational training curriculum, how much vocational training was provided is uncertain
because participants kept extending their time in the basic skills components. The following
example shows how some basic skills/vocational training classes the participants enrolled in imply
more vocational training than occurred.

        Participant example 2

        This participant was scheduled to attend TAA-funded basic skills/computer
        operator training at the community college from October 1997 through June 3,
        1998. Apparently, the enrollee never received the vocational part of the training
        because she was enrolled in some type of Pilot grant-funded basic skills or ESL
        training from October 1997 through January 1998. Then she was given another
        TAA-funded individual referral contract for only GED training at the community
        college from September 28, 1998, through November 17, 1999. In November
        1999, this enrollee did not pass the writing part of the GED and was then given
        additional PREP-funded GED training at the community college from November
        19, 1999, through January 28, 2000.

        The case file doesn’t indicate whether she took the GED exam again or passed,
        after the additional GED training at the community college.


This example is typical of the TAA-funded training for our sample PREP enrollees; i.e., the TWC
Trade Unit usually scheduled basic skills and vocational training together. However, as shown
above, our sample PREP enrollees frequently did not complete the vocational component of the
TAA-funded training. In fact, the lack of progress in basic skills was a factor in ETA’s awarding
the JTPA-funded PREP grant to the El Paso WDB.

Agencies’ Responses and Auditor’s Conclusions

Upper Rio Grande Workforce Development Board

The WDB’s response stated that 39 percent of the PREP grant was allocated for training.
However, only 28 percent was spent on training according to the June 30, 2001, cost report.

The WDB also stated that most participants had a second or third grade education; therefore, they
had to provide training on a linear basis. The average educational level at the time the participants
enrolled in PREP was grade 9 for the 220 sampled participants for whom we could determine



                                                 19
educational level. Furthermore, only 10 percent of our sample had educational levels below the
sixth grade.

The WDB also responded that the average cost per participant was expected to be higher during
the first two years, when basic skills and literacy were the primary focus. According to the WDB,
during the third year, the emphasis was on placing participants and finding jobs. Many
participants were enrolled in training a long time before the PREP grant was received and
continued into basic skills training throughout their training curriculums never reaching vocational
training.

Texas Workforce Commission

TWC again referred to the demographics cited in GAO’s report -- Hispanic, female, single heads
of household, over the age of 40, less than a high school education, and limited English
proficiency. TWC argues that the vast majority of workers were even more seriously
disadvantaged. Most had a second or third grade education from Mexico, had not been in a
classroom or other educational setting for at least 30 years, and had marginal literacy skills in
Spanish.

TWC noted that the Federal trade program’s guidelines were originally designed to assist middle-
age, middle-class, English-speaking factory workers in the Midwest and Northeast. These
guidelines were simply extended to the NAFTA trade-affected worker on the Texas-Mexico
border with little adjustment to compensate for the significant differences in the populations of
these economically, culturally and geographically divergent areas.

Again, we disagree with the TWC contention that most enrollees had a second or third grade
education from Mexico. As stated above, at PREP enrollment, the average educational grade
level for our randomly-selected sample was the ninth grade with only 10 percent below the sixth
grade level. Furthermore, the basic skills training was to be followed up with vocational training.
As pointed out in the report and TWC’s response, much of the vocational training never
happened.


                                                The following table shows the total direct enrollee
 B. PREP enrollees’                             training, income support, and supportive services
 training, income                               costs paid on behalf of the sampled PREP
 support, and supportive                        enrollees. These costs include direct training costs
 services costs covered a                       paid by the TAA/NAFTA-TAA, Pilot, PREP, and
 broad range. Some                              other programs that we were able to compile. It
 enrollees had few costs                        also includes UI benefits, TRA and NAFTA-TAA
 while a few had costs                          benefits, and NRPs paid through either the Pilot
 over $60,000.                                  grant, special NRP grant, or PREP grants.



                                                 20
             PARTICIPANTS’ TRAINING AND INCOME SUPPORT COSTS
                         AS OF SEPTEMBER 30, 2000,
             BY ENROLLEES’ PROGRAM STATUS AS OF APRIL 30, 2001

       Enrollees’ Status         Total Enrollee Training and Income Support Costs
       as of April 2001
         TWIST Data           No.
                             Part. Minimum            Maximum       Mean         Sum
      STILL in TRNG             5   $     12,606      $    37,778   $ 23,473     $    117,364
      ENROLLED/ NO             57   $        116      $    51,776   $ 24,780     $ 1,412,455
      TRNG
      TERM W/EMP              137   $        360      $    64,040   $ 23,653     $ 3,240,449
      TERM/ NO EMP             32   $        173      $    33,530   $ 16,692     $    534,131
      ALL                     231                                   $ 22,963     $ 5,304,400

Based on the sample results, we estimate the direct training and income supports costs at $98
million as of September 30, 2000, for the population of 4,275 PREP participants enrolled as of
December 31, 1999.

Agencies’ Responses and Auditor’s Conclusions

Upper Rio Grande Workforce Development Board

The WDB responded that to address the need for bilingual instructional programs that integrated
ESL, vocational training, and employability skills to include Spanish literacy, the WDB developed
a request for proposal for the development of bilingual training programs. As a result, the
communities’ capacity increased from zero to 25 training providers. The WDB’s response did not
provide any apparent disagreement with this section of our draft report.

Employment and Training Administration

ETA stated that it was difficult to respond to the issue of participant enrollment with multiple
ESL/GED training vendors because the report did not describe the circumstances. While there
were numerous individual circumstances, the participant examples illustrate the details for several
participants. ETA also commented that the project encouraged more expensive customized
training. However, we did not find any customized training for identified employers.


                                                 21
                                    Not only were participants shifting between multiple training
 C. Some of the                     types and training providers, some of the training was
 participants’                      expensive with questionable outcomes. The following
 training was                       participant example demonstrates this point.
 expensive.


Participant example 3

The highest price in our sample for a single basic skills course was about $20,000 for ESL/GED
training scheduled from August 1998 to July 2000. This 51-year-old had a sixth grade
education. This enrollee was employed every quarter from his layoff in 1996 through September
30, 2000.

Although he was reported placed in October 2000 as a building maintenance worker for an
apartment complex at $6.50 per hour, State wage records did not show any earnings for this
person during the fourth quarter of 2000. State wage records for the first quarter of 2001, show
the enrollee earned $3,500 with an employment agency.

The following chart shows the range of direct training costs incurred for the 221 sampled
enrollees for whom we could determine training costs.

                ANALYSIS OF NUMBER OF PREP ENROLLEES
                    BY AMOUNT OF TRAINING COSTS




                                                22
The cost of some training in connection with low wage placement outcomes appears to reflect on
the quality of the training. In our opinion, some placement outcomes, for individual sample PREP
enrollees, show that the costs expended for basic skills training and some vocational training
appear unjustified.

While the supplemental training and support assistance available through the Pilot and PREP
programs may have been well intended, program outcomes indicate that in many instances the
effort was ineffective. In fact, those participants who earned less than $6 per hour had the highest
average total training and income support costs of $24,843. (See appendix A, table 4.)

The example below shows the training activities and costs incurred for a 45 year old former
bootmaker who was laid off in June 1996. His education consisted of primary school in Mexico.

     Participant example 4

             Income support/supportive services
             !     UI Benefits:                                     $ 8,005
             !     TRA Benefits:                                      8,574
             !     Needs Related Payments:                           23,718
             !     Transportation, test fees,
                     and vision exams:                                2,154
                   Total income support/services                                     $42,451

             Training costs by funding source
             !      TAA- GED training (obtained Spanish GED)
                      05/97 to 10/97                         $ 4,702
             !      Pilot Program- ESL 10/97 to 02/98          2,214
             !      Pilot Program- ESL/GED/Nursing Asst.
                      07/98 to 11/98 (school closed)           2,853
             !      PREP-Pre-Basic Skills
                      11/98 to 02/99 (withdrew)                2,919
             !      PREP-ESL/Micro Enterprise 03/99 to 06/00 11,115
                            Total training costs                                     $23,803

             Employment bonus                                                         $ 500

             Total costs                                                              $66,754

Approximately $24,000 in training costs, mostly for basic skills training, and $42,000 in income
support were not effective in terms of this participant’s job placement. This participant was
enrolled in two separate GED curriculums, the latest approximately 10 months after he had
already received his GED in Spanish. He was also enrolled in three ESL and two vocational
training curriculums. The last ESL/Micro Enterprise (vocational) curriculum, costing over


                                                 23
$11,000, had a component including small business development. However, since this participant
went to work on August 8, 2000, as a maintenance worker at $5.50 per hour, the value of some
high cost training -- over $20,000 for multiple basic skills and vocational training classes --
appears questionable.

(See appendix B for additional participant examples of high cost for training and income support.)

Agencies’ Responses and Auditor’s Conclusion

Upper Rio Grande Workforce Development Board

The WDB responded that the costs of developing the integrated training programs included start-
up costs to recruit and hire instructors, develop curriculums, rent space, procure instructor and
participant manuals, train instructors, etc. Also, at that time the WDB could not regulate
providers’ training costs.

While we did not perform a review of the WDB’s procurement of training providers, some of the
training appeared extremely expensive. We did inquire into obtaining the procurement files for
cursory review to determine how the training fees were established; however, we were told some
of the procurement files had been lost. Furthermore, many of the high-cost courses did not
include any vocational training.

Texas Workforce Commission

The TWC responded that success in traditional ESL programs is predicated on a person’s being
literate in their first language. The TWC attempted with the Pilot program, and the WDB with
the PREP, to identify training institutions, public or private, that would design a vocational skills
program that integrated Spanish literacy development with ESL. Employers in El Paso were
frequently consulted regarding the skills that were needed to reemploy the dislocated workers.
Employers were unbending in requiring a GED and English fluency. In addition, entry-level
requirements for vocational skills training in El Paso generally required a GED and some level of
English fluency.

The TWC responded that the imperative became identifying and recruiting vocational skills
training institutions to develop and offer an approach to vocational skills training that integrated
work-related, on-the-job English with vocational training. The TWC responded that the results
were dismal. Small institutions could only serve a few workers, and larger institutions continued
to deliver ESL programming that was not tied to vocational outcomes. Subsequently, the WDB
shifted the emphasis from training to job development and placement.




                                                  24
                                                       The WDB’s contention that the trade-
 3. Evidence Suggests That Needs Related               affected dislocated workers needed JTPA-
 Payments Delayed Some Enrollees’ Return to            funded supplemental income support to
 Work.                                                 continue their training may have had merit.
                                                       However, in our opinion, eventually just
                                                       the opposite happened -- some participants
did not receive NRPs so they could attend training, they attended training so they could receive
the NRPs.

The WDB assumed that these participants might need training time beyond that allowed by
TAA/NAFTA-TAA (104 weeks) to learn English as a Second Language and obtain their GED
prior to learning a new occupational skill to obtain employment in the El Paso job market. Also,
the WDB concluded that these dislocated workers would need supplemental income support
beyond the 78 weeks of UI and TRA/NAFTA-TAA benefits in the form of NRPs to allow them to
complete their occupational skills training. The JTPA Pilot grant, the Secretary’s National
Reserve Account (NRA) special NRP grant, and the PREP grant funded NRPs to allow the
participants to continue training.

Of the 224 sampled PREP enrollees who received training, 143 (64 percent) received NRPs. The
reason that only 64 percent received NRPs is because many enrollees, especially those laid off in
1998, had not exhausted their available UI or TRA/NAFTA-TAA benefits when the WDB
terminated all participants’ NRPs in June 2000.

In our opinion, the weekly NRP amount made NRPs more profitable than working at the average
placement wage. For most training – particularly ESL/GED training – the amount of training
time required to receive the minimum NRP benefit was generally 20 hours a week. For the 143
participants in our sample who received NRPs, the average weekly NRP was $182, or $9.10 per
hour. The average placement wage was $6.77 per hour.

Receiving $9.10 per hour, tax free, by simply attending 20 hours of training, without having to
demonstrate progress in training, was more profitable than making $6.77 per hour before taxes,
for working a 40-hour week. Even at the minimum NRP amount ($150 per week), $7.50 per
hour exceeded the average placement wage.

Our conclusion that some participants attended training to continue to receive NRPs is
demonstrated by the following participant’s file.




                                                25
       Participant example 5

       This participant has not worked since the fourth quarter of 1996 and had been
       enrolled in various training activities from January 1997 through September 1999.
       In October 1999, this participant was demanding to be enrolled in more training
       even though she had already:

               !      completed computer operator training and received her computer
                      operator certificate (December 16, 1998),

               !      completed GED training and received her GED (March 25, 1999),
                      and

               !      received 22 months of intensive ESL training (last extension
                      through September 21, 1999).

       The case manager informed this participant that after her last training extension
       expired, no more training would be approved, she would be enrolled in job search,
       and her NRPs would be stopped. The case manager’s note states: [The
       participant] walked into my office unannounced and was upset because she had
       to look for a job and she stated PREP could not force her to work. This case
       manager’s note is dated January 6, 2000. This participant does not have reported
       wages in Texas for calendar year 2000 or the first quarter of 2001. It appears this
       participant was interested in the NRPs, not employment.


The weekly NRPs were originally paid under the Pilot program at the same rate as the
participants’ UI weekly benefit amount (WBA). After receiving the PREP grant, the WDB set
the minimum weekly NRPs at $150. The Pilot grant was amended to set the NRP floor at $150.

Of the143 participants in our sample who received NRPs, 54 participants’ UI WBAs were less
than $150. Consequently, these individuals received a significant increase in weekly support
payments with the $150 NRP floor. The average difference between these participants’ UI WBA
and the $150 minimum was $33, with the maximum difference being $72.

While it may have been administratively desirable to reduce the amount of case manager time
required to make individual determinations of need, in our opinion, the policy increased the
likelihood that NRPs would unnecessarily delay enrollees’ return to work.

The following table shows the range of weekly NRPs for the 143 participants in our sample who
received the NRPs.




                                               26
                    Weekly NRP Amount           Participants       Percent

                 Less than $150                                8       5.6%
                 $150                                      60        42.0%
                 $151 - $200                               25        17.5%
                 $201 - $225                               23        16.1%
                 $226 - $250                                   9       6.3%
                 Over $250                                 18        12.6%
                        Total                            143        100.0%


Other evidence that NRPs delayed participants’ return to work is the acceleration in job
placement rate after June 2000 when the WDB terminated all participants’ NRPs. For the period
July through December 2000, the WDB reported 47 placements, compared to 37 for the January
to June 2000 period.

When NRPs were terminated, the WDB offered participants a $500 incentive bonus for obtaining
full time employment and another $500 bonus if they remained on the job for 90 days. The WDB
also offered a $250 bonus for obtaining part time employment and another $250 bonus if they
remained on the part time job for 90 days.

In our opinion, the amount and availability of NRPs delayed many participants’ return to the El
Paso labor market.

Agencies’ Responses and Auditor’s Conclusions

Upper Rio Grande Workforce Development Board

The WDB response agreed with our conclusion that NRPs deterred participants’ returning to
work and pointed out that the Board requested a grant modification to cease NRPs in early 2000.

Texas Workforce Commission

The State questioned the level of evidence we have for our conclusion regarding NRPs and noted
that few workers could advance quickly through a traditional ESL program or could have stayed
in training without income support.

Our conclusion that NRPs delayed some enrollees’ return to work is based on discussions with
PREP case managers and review of the case files available for 231 randomly-selected enrollees.
The management issue is that periodic assessment of enrollee progress is needed to preclude

                                                27
individuals from simply attending class solely to obtain income support. Otherwise, the worthy
objective to train workers in both educational and vocational skills may have the unintended
consequence of providing a disincentive to work.

The job placement rate accelerated in the July to December 2000 period, after the WDB
terminated all participants’ NRPs, and program management encouraged enrollee job placement.
In this period, 47 participants entered employment, compared to 37 for the January to June 2000
period. When NRPs were terminated, the WDB offered participants a $500 incentive bonus for
obtaining full-time employment and another $500 bonus if they remained on the job for 90 days.
The WDB also offered a $250 bonus for obtaining part-time employment and another $250 bonus
if they remained on the part-time job for 90 days.

The graph below shows the acceleration in job placements in July to December 2000:




Furthermo                                                                            re, the
WDB, the                                                                             grant
operator that dealt first hand with the participants, agrees with our conclusion.

Employment and Training Administration

ETA agreed that income support can serve as a disincentive to complete education or training if
not managed carefully but stated that our report is misleading regarding the tax consequences of
income support. Furthermore, ETA states that it is difficult to conclude that the population of
PREP participants received more education or training than they needed to compete in the
workforce.




                                                 28
While UI, TRA, and NRPs -- if considered by IRS to be income support -- are taxable, it is
unlikely that many PREP enrollees paid any tax on these income support sources based on the
earned income tax credit threshold.

The OIG agrees that participants in job training programs can never learn too much. However,
sitting in a classroom to obtain NRPs does not necessarily equate to participant learning. To the
extent that income support was viewed as an alternative to work, some participants likely had less
reason to work hard at learning the new skills based on the training courses in which they were
enrolled.

Again, the OIG’s conclusion that NRPs were a disincentive for some participants to return to
work was validated by the WDB.




                                                29
                         CHAPTER 2: RECOMMENDATIONS



Should grants be awarded in the future to extend services, beyond those received under UI, TAA
and NAFTA-TAA, to trade-affected dislocated workers, we recommend the Assistant Secretary
for Employment and Training require such grants to:

       !       institute controls to ensure participants’ needs for further training are properly
               assessed and that training can be provided to realistically address such needs;

       !       periodically evaluate the effectiveness of training providers;

       !       routinely assess participants’ training progress and modify strategies where
               participants do not appear to be moving toward the ultimate outcome of achieving
               employment;

       !       structure needs related payments such that there is a clear economic incentive for
               participants to complete training and move on to employment; and

       !       study the extent to which employers recognize and value GEDs obtained in
               languages other than English for purposes of adopting a policy on whether
               supporting the attainment of such GEDs is an appropriate use of program funds.

Agencies’ Responses and Auditor’s Conclusions

Upper Rio Grande Workforce Development Board

The WDB did not respond to the recommendations but indicated it would use the report’s
findings to enhance future programs of this nature.

Texas Workforce Commission

The TWC concurs with all but the last recommendation. The State agency believes this is a local
issue. The State indicated that the Workforce Board adopted a policy approving the use of the
Spanish GED as part of the recognition that it gave workers a positive outcome for their efforts
and believed it encouraged them to stay in school and learn additional English.

Some of the 11 participants we interviewed stated that the PREP case managers recommended
that they take the GED in Spanish, which they did and passed. These participants did not believe
the certificates in Spanish were useful, since prospective employers required English- language
skills for all applicants.


                                                 30
Employment and Training Administration

ETA agreed in concept with the recommendations presented in the draft report, which we have
retained in this final report. But there was no agreement to implement any specific policy changes
as a result. The response states that the new Workforce Investment Act may address some of the
recommendations. Furthermore, ETA expects that the recertification requirement for training
providers prescribed by WIA will help eliminate less effective training providers.
The response committed ETA to emphasizing the need for periodic progress checks by grantees
to ensure that the intervention strategy employed is appropriate to the individual participant’s
need for training. Also, ETA expressed the view that local workforce boards are responsible for
making policy decisions on payment of income support, including any restrictions, and whether
ETA grants should be used to support the attainment of GEDs in languages other than English.

Also, ETA stated that a best practices technical assistance guide was published and distributed to
the workforce investment system on strategic planning to bring together information on economic
and labor market trends to support workforce planning strategies and WIA program operations.


While the State and local partners in the workforce delivery system have many critical
responsibilities in delivering services to dislocated workers, we believe ETA has a critical policy
making and oversight role. It is essential for ETA to assure that its discretionary grants, such as
PREP, represent an effective use of appropriated funds. The decision to expend the $45 million
on PREP was ultimately ETA’s.




                                                 31
                                                                                                 APPENDIX A


                                                       TABLE 1

               ANALYSIS OF PARTICIPANT PLACEMENT WAGES
                   IN RELATION TO TRAINING TIME AND
                  TRAINING AND INCOME SUPPORT COSTS


                                               Training and
                                              Income Support           Placement
                                                  Costs7                 Wage

                             Time in           No.                   No.
                             Training          Part        Avg.      Part.     Avg.
                        1-180 days                17    $ 11,032         8    $ 6.88
                        181-365 days              43    $ 15,330        31    $ 7.16
                        1-2 yrs.                102     $ 22,290        57    $ 7.08
                        2-3 yrs.                  48    $ 31,088        29    $ 6.18
                        3+ yrs.                   14    $ 38,577         8    $ 5.38
                        ALL                     224     $ 23,003      133     $ 6.798




        7
          The costs in this table exclude PREP supportive services such as child care or gas money, etc. Also, 4 of
the 137 enrollees who were reported as entered employment did not have any training.
        8
          This is the average wage for 133 of the 137 placements who received training. The average wage for all
137 participants reported placed was $6.77.

                                                        32
                                                                       APPENDIX A

                                 TABLE 2

          ANALYSIS OF PLACEMENT WAGE RATES
           COMPARED TO LAYOFF WAGE RATES
            FOR THE REPORTED PLACEMENTS
        WHERE BOTH WAGE RATES WERE AVAILABLE

                                 Placement Wage
                                                                               ALL
Layoff        Below $6.00   $6.01-$7.50   $7.51-$10.00   Over $10.00
Wage
              N    %        N    %        N    %         N    %          N     %
Unstated      18   13.1 %   1    0.7 %    2    1.5 %     3    2.2 %      24    17.5 %
Below
$6.00         33   24.1 %   9    6.6 %                   1    0.7 %      43    31.4 %
$6.01-$7.50   11   8.0 %    11   8.0 %    2    1.5 %     4    2.9 %      28    20.4 %
$7.51-
$10.00        15   10.9 %   10   7.3 %    6    4.4 %     3    2.2 %      34    24.8 %
Over $10.00 1      0.7 %    2    1.5 %    4    2.9 %     1    0.7 %      8     5.8 %
ALL           78   56.9 %   33   24.1 %   14   10.2 %    12   8.8 %      137   100.0 %




                                     33
                                                                           APPENDIX A

                              TABLE 3

       ANALYSIS OF DAYS IN HOLDING
    FOR THE SAMPLED PREP ENROLLEES
WHO WERE “STILL ENROLLED, NOT IN TRAINING”
            AS OF APRIL 30, 2001,
      OR “TERMINATED AS EMPLOYED”

         Days in Holding Before Termination or April 30, 2001
                                               Final Status
                     Still Enrolled
                     PREP-Not in           Terminated
                          Tng.              W/Emp.                 ALL
      No. Days       N      PCTN           N       PCTN       N        PCTN
None                                        27      13.9%         27     13.9%
1-10 days                                   15       7.7%         15     7.7%
11-30 days             1     0.5%              8     4.1%          9       4.6
31-90 days             4     2.1%           30      15.5%         34     17.5%
Total - Less than
90 days                5     2.6%           80     41.2%          85   43.8%
91-180 days            4     2.1%           29      14.9%         33     17.0%
181- 1 year           31    16.0%           17       8.8%         48     24.7%
1-2 years             14     7.2%           11       5.7%         25     12.9%
Over 2 years           3     1.5%                                  3     1.5%
Total - More
than 90 days          52    26.8%           57     29.4%      109      56.2%
ALL                   57    29.4%          137      70.6%     194      100.0%




                                      34
                                                                          APPENDIX A

                                       TABLE 4

      ANALYSIS OF PARTICIPANTS’ PLACEMENT WAGE RATES
         IN RELATION TO AMOUNTS OF ENROLLEE COSTS

    Training, Income Support and Benefits for PREP Enrollees by Placement Wage
                         Avg. Direct          Avg. UI &
                           Trng.&           Trade Benefits                    Avg.Total
Placement Wage    No.    Supp. Costs            Costs        Avg. NRP Costs    Costs
$5.15 - 6.00        78   $    7,113     $           12,032   $        8,621   $   24,843
$6.01 - 7.50        33   $    6,429     $           11,977   $        8,266   $   21,661
$7.51 - 10.00       14   $    5,162     $           13,419   $        4,974   $   20,002
$10.01 +            12   $    6,075     $           15,160   $        5,888   $   25,651
ALL                137   $    6,655     $           12,444   $        8,093   $   23,653




                                             35
                                                                                APPENDIX A


                                    TABLE 5

         TYPES OF TRAINING PROVIDED BY FUNDING SOURCE

                                         Training Fund
                                                                                      ALL
                                   Pilot/TAA                 PREP
                                No.                  No.                      No.
                                Part.     %          Part.          %         Part.         %
Cat.        Type Tng.
            ESL Only              18      3.9%         48       10.5%           66      14.4%
Basic
Skills      ESL/GED               29      6.3%         22           4.8%        51      11.1%
            BS/ABE                19      4.1%           3          0.7%        22          4.8%
            ESL/ABE               13      2.8%           .                .     13          2.8%
            BS/GED (pre-GED)      19      4.1%         19           4.1%        38          8.3%
            Pre-BS                  1     0.2%           2          0.4%          3         0.7%
            Pre-GED                 .            .       1          0.2%          1         0.2%
            GED                     9     2.0%         16           3.5%        25          5.4%
            Computer Literacy     18      3.9%           5          1.1%        23          5.0%
Total Basic Skills               126     27.5%        116       25.2%          242      52.7%
Voc.        Voc. Tng.             60         13.1      60           13.1       120      26.1%
            Integ.Voc./ESL          3          0.7       6              1.3       9         2.0%
            BS/Voc. Tng.          69         15.0      19               4.1     88      19.2%
Total Voc. Trng.                 132         28.7      85           18.5       217      47.3%
ALL                              258     56.2%        201       43.8%          459     100.0%




                                        36
                                                                                     APPENDIX B

                                 PARTICIPANT EXAMPLE 1

The example below shows that $47,000 was spent on training, income support, benefits, and
employment bonus for a 66 year individual who was laid off in August 1995 from the garment
industry. His education in Mexico included the sixth grade. Benefits of over $28,000 were paid
to this individual; and over $18,000 in training was paid to provide largely basic skills training.

               Income support/supportive services
               !     UI Benefits                                     $1,823
               !     TRA Benefits                                     7,670
               !     Needs Related Payments                          17,785
               !     Other supportive services                          870
                     Total income support/ services                                  $28,148

               Training costs by funding source

               !      TAA-ESL/GED 6/96 to 10/97
                      Basic Care Attendant (Certificate)
                         11/97 to 5/98                               $ 3,746
               !      Pilot Program- Basic Skills 5/98 to 8/98         1,088
               !      PREP-GED 11/98 to 11/99                         10,330
               !      PREP-Shipping/Receiving Clerk Training           3,240
                       12/99-6/00
                      Total training costs                                           $18,404

               Employment Bonus Due                                                  $ 500

                              Total costs                                            $47,052

As shown in the above example, this participant was enrolled in ESL/GED training for
approximately 17 months (June 1996 to October 1997), then a year later enrolled in another year-
long GED (November 1998 to November 1999) class that cost over $10,000. Following that he
was enrolled in his second vocational training class for 7 months ending June 2000.

Yet, he was employed October 23, 2000, for $5.25 per hour by a temporary employment agency
as a maid/housekeeper. When we interviewed him in May 2001, he was employed at $8 per hour
in the garment industry, the same industry from which he was dislocated that allowed him to be
enrolled in PREP.




                                                 37
                                                                                      APPENDIX B

                                 PARTICIPANT EXAMPLE 2


This participant, laid off in July 1997, wanted to become a hair dresser but couldn’t because she
lacked the required GED. The following table shows how over $50,000 was spent for multiple
training courses and benefits for this participant who was enrolled in November 1997 and was
still enrolled in the program at April 30, 2001.

                 ESL/GED Direct Training Costs                         Enrollee Benefits
     Training Vendor              Commitment          Paid                 Reg UI       $4,793

     School District ESL/GED            $3,481         $1,254                NRPs      $16,669
     Private School ESL/GED            $13,960        $11,440             NAFTA       $12,757
     School District GED/Child          $3,217         $2,803        Other benefits        $750
     Care
             Totals                    $20,658        $15,497                Total     $34,969

The participant started TAA-funded ESL/GED training at a public school district learning center.
Less than one-third of the commitment ($1,254) was paid since the enrollee didn’t complete the
training planned for November 1997 through July 1999. The PREP grant then paid $11,440 for
the same type of ESL/GED training at a private school from February 1999 through December
1999. Finally, PREP returned the enrollee to the same public school district in which she was
originally enrolled and paid $2,803 for more GED and child care training for the period January
2000 through June 2000.

As of April 30, 2001, she was still enrolled under PREP, classified as receiving basic readjustment
services (BRS). BRS is generally provided at the beginning of a participant’s enrollment.




                                                 38
                                                                                APPENDIX B

                             PARTICIPANT EXAMPLE 3

TWC, under the TAA program committed $3,297 for ESL and plastic injection molding
at a community college for an individual laid off in September 1995. TWC only paid
$164 against this training commitment that was planned for February 1996 through
December 1996. The file contained a certificate of completion dated December 11, 1996,
for 560 hours in Fundamentals of Injection Molding. We were unable to determine why
only $164 was paid under this contract. However, under the TAA combined basic
skills/vocational training curriculums, normally the vocational component was the last
component, consequently one would assume that ESL was also completed.

However, PREP then paid $9,788 of a $11,832 training commitment with a private
school for ESL/GED training scheduled for August 1998 through March 2000. The
course was renewed every 3 months, with various price increases.

This 43 year old enrollee, with a second grade education in Mexico, was transferred to
job search in May 2000 with a case file note referencing the Plastic Molding Certificate.
The participant was terminated from PREP in October 2000 -- more than 90 days after
entering job search -- with a claimed job placement at $5.77 per hour.

While the enrollee is reported as having a successful outcome, the price of the added
basic skills training appears to be unreasonably high. Additionally, because of the
extended period of time this individual remained in training, about $21,000 in income
support was paid including UI, TRA, and NRPs.




                                            39
                                                                            APPENDIX B

                            PARTICIPANT EXAMPLE 4


This participant had one ESL/GED course that cost about $18,000. This 57 year old
enrollee, who was laid off in January 1997, was given one ESL/GED course at a private
school (with a commitment of $18,404, and $17,911 paid). The training was planned
from September 1998 through June 2000. However, the enrollee was apparently still
attending in November 2000. Her NRPs totaled $13,560, and other PREP benefits
totaled $790. Thus, the total direct costs for training and income support for this
individual for one training course was about $32,000.

She finished her training in February 2001 and transferred to job search.




                                            40
                                                                                     APPENDIX C

                                     SAMPLING PLAN


The sampling plan for the audit was based on the population of all El Paso PREP enrollees who
met the following criteria:

       !       enrolled between July 1, 1998, and December 31, 1999, and

       !       identified on TWIST as enrolled in the El Paso PREP Program.

The source of the population was six Excel spreadsheets from the Upper Rio GrandeWorkforce
Development Board (WDB), derived from TWIST data run on April 19, 2000. From the
population of 4,466 active and terminated participants from PREP we used a simple random
sampling plan, selecting 243 participants based on a two-sided 95 percent confidence level,
expected error rate of 50 percent, and precision of ± 5 percent.

Participant files were reviewed for the randomly-selected enrollees. We learned that the WDB
was rescinding individuals that never received any training or services from PREP. The
information about the rescinded enrollees was received after we had reviewed all participant files,
but necessitated the removal of all of the rescinded participants from both the universe and the
sample.

The WDB informed us that 191 individuals had been rescinded reducing the population size to
4,275. The enrollees were rescinded because they had been “electronically” enrolled in PREP but
never received any training and/or services from the PREP. The rescinded participants were also
removed from the TWIST system.

The following table displays the resulting sampling plan.

                                     No. of Enrollees       Rescinded        Adjusted
                     Universe           Selected            Enrollees        Sample
                       4,275                243                12              231

The random sample, as adjusted, resulted in an expansion factor of 18.506494 (4,275/231).




                                                  41
                                                  APPENDIX D




 AGENCIES’ RESPONSES TO DRAFT REPORT

Upper Rio Grande Workforce Development Board’s Response

        Texas Workforce Commission’s Response

   Employment and Training Administration’s Response




                          42
43
44
45
46
47
48
49
50
51
52
53
54
55
56
57
58
59
60
61
62
63
64
65
